National Aeronautics and Space Administration

Office of Inspector General
Washington, DC 20546-0001




                                                June 1, 2010


TO:              William P. McNally
                 Assistant Administrator for Procurement

                 Dudley R. Cannon
                 Director, Kennedy Space Center Procurement Office

FROM:            Paul K. Martin /s/
                 Inspector General

SUBJECT:         Final Memorandum on the Review of NASA’s Payment of Task
                 Order 389 to United Launch Alliance (Report No. IG-10-010;
                 Assignment No. A-08-005-01)

The Office of Inspector General (OIG) reviewed NASA’s September 24, 2009, payment
of $12,019 to United Launch Alliance (ULA) for costs associated with supporting an OIG
audit of NASA’s export control program. Our objective was to determine whether
NASA’s payment to ULA was appropriate under the contract. Although this review
focused on one contract, the issue of NASA approving a payment for contractor costs
associated with supporting the work of the OIG may have broader applicability across
other NASA contracts.

Executive Summary

NASA should not have approved payment to ULA for costs associated with supporting
the OIG audit because the contract with ULA requires it to support oversight activities
(defined in the contract as insight, inspection, inspect, and test) at no additional cost to
the contract price. Furthermore, the NASA contracting officer at Kennedy Space Center
(KSC) authorized reimbursement to ULA even though the request did not comply with
terms of the contract that required written agreement on task orders prior to the contactor
performing any work. In this case, the contracting officer approved ULA’s task order to
support the OIG audit after the work was completed rather than before it was initiated.

We recommended that the Director, KSC Procurement Office, recover the amount paid to
ULA through direct reimbursement or offset of a future payment. We also recommended
that the Assistant Administrator for Procurement provide contracting officers training to
familiarize them with the OIG’s oversight function and with contract clauses that require
NASA contractors to cooperate with oversight organizations during the performance of
their contracts – including cooperation with audits conducted by the OIG and the
                                                                                            2



Government Accountability Office (GAO) – at no increase in the contract price. (See
Enclosure 1 for details on the review scope and methodology.)

Management’s Response. In commenting on the draft of this memorandum (see
Enclosure 2), NASA’s Assistant Administrator for Procurement did not concur with our
recommendation to recover the $12,019 paid to ULA, stating that he believed the support
provided by ULA was “beyond the intent of the parties” (NASA and ULA) and the
money paid was “fair and reasonable for the work performed.” Although the contracting
officer had authority to enter into this task order, we believed the task order was
unnecessary because existing contract clauses support such inspection and oversight at no
additional cost to the Government. Furthermore, charging audit cooperation costs
directly against the launch services contract, albeit with NASA’s approval, appears to be
inconsistent with ULA’s accounting practices because “Audit services” is included in the
General & Administrative (G&A) Expense Pool of ULA’s Cost Accounting Standards
Disclosure Statement. Therefore, we believe the costs ULA incurred while cooperating
with the OIG audit were simply part of the cost of doing business as a major Government
contractor and that NASA erred in paying Task Order 389. However, given the modest
dollar amount at issue in this case, we do not expect NASA to undertake Contract
Disputes Act litigation to recover the monies paid. Rather, we would hope that NASA
would request that ULA reclassify its audit cooperation in this case as an indirect cost.
Since NASA and OIG have reached an impasse on this particular matter, we are closing
the recommendation but urge NASA to recognize and reinforce the underlying, general
principle that contractors have a duty to assist with OIG reviews of their NASA contracts
without expecting additional reimbursement from NASA.

The Assistant Administrator partially concurred with our second recommendation to
provide contracting officers training on the extent of contractors’ obligations to cooperate
with government audit and oversight efforts. The Assistant Administrator stated that
contracting officers receive training on a regular basis on the contractual process, and that
this includes training on the “appropriate interpretation of contract clauses.” We suggest
that as part of these sessions, contracting officers receive training about the operation of
OIG, GAO, and other oversight organizations that function independent of the contract.
We will close the recommendation following verification that contracting officers are
receiving applicable training.

Background

From November 2007 through April 2009, the OIG conducted an audit of NASA’s
oversight and monitoring of contractor transfers of critical technologies and technical
information to foreign nationals and countries of concern. As part of the audit, we
reviewed 13 contracts and visited 10 contractor locations, including the United Launch
Alliance (ULA) facility located on Cape Canaveral Air Force Station, Florida, in
September 2008. ULA supported the audit by arranging interviews with ULA personnel
                                                                                                     3



responsible for managing its export control program and by providing relevant procedural
and policy documentation.

On August 31, 2009, the OIG received a copy of a task order ULA submitted to NASA
requesting reimbursement of $12,019 for costs associated with supporting the OIG audit.
Task Order 389 (Enclosure 3), dated August 12, 2009, was issued under Contract No.
NAS10-00-001, which is NASA’s firm-fixed-price contract with ULA for launch
services. On September 24, 2009, NASA disbursed $12,019 to ULA for this task order.

ULA Contract Provides for Government Insight and Inspections

NASA Contract No. NAS10-00-001 with ULA for launch services contains two clauses
(Clauses 25 and 35) that require ULA to support Government insight and inspections at
no additional cost in the contract price.

Section C, Clause 25, Government Insight and Approval, of the ULA contract states that

          [t]he contractor shall provide NASA 1 an adequate level of insight into and/or approval
          of certain contractor tasks and milestones in order to ensure all reasonable steps have
          been taken that result in the highest probability of mission success.

Section C, Clause 25.3, defines Government insight as

          gaining an understanding necessary to knowledgeably concur/non-concur with the
          contractor’s actions through watchful observation, documentation, meeting
          attendance, reviews, tests and compliance evaluations.

Section C, Clause 25.5, further states that

          [t]his insight shall be accommodated with no increase in contract price.

Section C, Clause 25.8 lists specific areas open to Government insight including
“operations and procedure discipline” and “work practices and documentation.” The
contractor’s export control procedures, which is a requirement based on contract Clause
30, Export Control and Foreign Nationals, are inherent to the services provided to NASA
and, therefore, are covered by the “operations and procedure discipline” and “work
practices and documentation” section of the contract clause.

The contractor also agreed to abide by Clause 35, Listing of Clauses Incorporated by
Reference, which subjects the contractor’s export control procedures (as inherent
services) to Government inspection and testing at no increase in contract price.


1
    The Inspector General Act of 1978 (Public Law 95-452), as amended, authorizes access by NASA OIG to
    all NASA records, reports, audits, reviews, documents, papers, recommendations, or other materials,
    including contractor data and other information related to NASA contracts. Contractor data are also
    available to the OIG by administrative subpoena.
                                                                                                     4



Specifically, Clause 35, which includes by reference Federal Acquisition Regulation
(FAR) Section 52.246-4, states that

       [t]he Government has the right to inspect and test all services called for by the
       contract, to the extent practicable at all times and places during the term of the
       contract.

The FAR section further states that

       [i]f the Government performs inspections or tests on the premises of the contractor or
       a subcontractor, the contractor shall furnish, and shall require the subcontractor to
       furnish, at no increase in contract price, all reasonable facilities and assistance for the
       safe and convenient performance of these duties.


Contracting Officer Did Not Consider Relevant Contract Clauses in Approving
 ULA’s Task Order

On October 15, 2009, we met with the Chief of Flight Projects, two contracting officer’s
technical representatives, the lead contracting officer, the contracting officer, and three
members of the Office of Chief Counsel responsible for administering KSC’s contract
with ULA. At this meeting, we discussed the basis for NASA’s payment of the ULA task
order given that the contract included Clauses 25 and 35, which provide for Government
insight and inspection at no additional cost in the contract price.

The Assistant Chief Counsel from KSC’s Office of Chief Counsel stated that the expense
of providing audit support were ULA’s responsibility if the work performed in supporting
the OIG audit was within the scope of the contract. However, he concluded that
determining whether the audit support provided was within or outside the scope of the
contract was a contracting issue and therefore he deferred to the contracting officials.

During our October 15, 2009, meeting, the contracting officer stated that she had sought
advice from legal and other offices prior to approving payment and that she and the lead
contracting officer concluded that Clauses 25 and 35 applied only to the launch services
provided under contract and not to the overall administration of the contract.
Consequently, she said she paid the contractor the costs it billed for supporting the OIG
audit without considering the two contract clauses highlighted by the OIG. We disagree
with NASA’s decision to pay the contractor for supporting the OIG audit because
Clauses 25 and 35 provide the Government the right to perform oversight of all contract
activities, including overall administration of the contract, at no additional cost.

Contracting Officer Approval of ULA’s Task Order Was Inappropriate

The contracting officer approved payment of the ULA task order even though neither
NASA nor ULA followed the required ordering procedures for issuing a task order. In
addition, the statement of work (SOW) ULA referenced to justify the work performed
under the task order did not relate to the support provided to the OIG. Since the task
                                                                                                   5



order was not issued prior to performance of the work as contractually required, and
because the task order SOW did not describe the actual work performed, the contracting
officer had insufficient justification to approve payment to ULA.

Contract Clauses 8, Scope of Work-Special Task Assignments (Studies and Analysis)
[Contract Line Item Number] (CLIN 12), and 9, Ordering Procedure and Payment for
Special Task Assignments (Studies and Analysis) (CLIN 12), require that the terms and
conditions of a task order be agreed to in writing prior to the contractor performing any
work on the order. However, ULA submitted this task order for payment almost a year
after the work was completed. Had contractual procedures been followed, the contracting
officer should have reviewed the appropriateness of issuing a task order and established
the total price and number of direct labor hours allotted for the task prior to ULA
performing any work to support the OIG audit. Given this failure to comply with the
relevant contract terms, the contracting officer should not have approved the task order
for payment.

In addition, ULA’s task order incorrectly cited Paragraph 5.0, Special Task Assignments
[Studies and Analysis, CLIN 12], and Attachment D1 of Contract No. NAS10-00-001 as
justification for the work performed. Paragraph 5.0 states

       [t]he Contractor shall be required to perform special studies and analyses, provide
       materials, or fabricate hardware in support of this contract. Each task will be initiated
       by written direction from the NASA Contracting Officer. At the Contracting Officer’s
       discretion, these tasks generally include: advance planning and feasibility studies in
       support of future contemplated missions; analyses in support of change requirements
       to authorized missions; development, fabrication, and test of hardware/software to
       support planning studies or special tests; mission unique studies; material provision;
       and hardware fabrication in support of missions.

The contracting officer should not have approved the payment to ULA given that the task
descriptions cited in the above paragraph relate to specific launch services activities
rather than the type of support ULA provided to the OIG audit.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response

Recommendation 1. We recommended that the Director, KSC Procurement Office,
recover the $12,019 inappropriately paid to ULA for Task Order 389 under Contract No.
NAS10-00-001.

   Management’s Response. The Assistant Administrator for Procurement
   nonconcurred, stating that the money paid under the task order was for audit work that
   was beyond the intent of the parties and beyond the terms and conditions of the
   contract. The Assistant Administrator also stated that “the amount paid was fair and
   reasonable for the work performed.”
                                                                                              6



   Evaluation of Management’s Response. We disagree with the Assistant
   Administrator and maintain that the contracting officer should not have approved the
   task order because clauses 25 and 35 of the contract clearly dictate that the contractor
   shall support inspection and oversight at no additional cost to the Government.

   In addition, ULA’s Cost Accounting Standards Disclosure Statement reveals
   numerous indirect cost categories, as defined by ULA, against which it would have
   been more logical to charge the audit cooperation effort, including the General &
   Administrative (G&A) Expense Pool. Major functions of the G&A Expense Pool
   include “General Counsel,” “Office of Internal Governance,” and “Central Business
   Operations.” Major cost elements of the G&A Expense Pool include “Audit services”
   and “Legal fees.” In light of these indirect cost categories, ULA’s charging NASA for
   cooperating with the OIG audit against the launch services contract, albeit with
   NASA’s approval, appears to be inconsistent with ULA’s disclosed accounting
   practices.

   Therefore, we believe the costs ULA incurred when cooperating with the OIG audit
   were simply part of the cost of doing business as a major Government contractor and
   that NASA erred in paying this task order. However, given the modest dollar amount
   at issue, we do not expect NASA to undertake Contract Disputes Act litigation to
   recover the monies paid. Rather, we would hope that NASA would request that ULA
   reclassify its audit cooperation in this case as an indirect cost. We believe that these
   costs are overhead, and as such, ULA should have accounted for them as indirect
   costs in accordance with the Cost Accounting Standards and ULA’s Cost Accounting
   Standards Disclosure Statement.

   We also note that we have not reviewed the technical evaluation performed on the
   task order. We requested but did not receive any cost detail to support the amounts
   charged and paid for the task order and therefore are unable to determine whether the
   costs were fair and reasonable.

   Since the parties have reached an impasse on this particular matter, we are closing the
   recommendation but urge NASA to recognize and reinforce the underlying, general
   principle that contractors have a duty to assist with OIG reviews of their NASA
   contracts without expecting additional reimbursement from NASA.

Recommendation 2. We recommended that the Assistant Administrator for
Procurement provide contracting officers training to familiarize them with contract
clauses that require NASA contractors to assist in oversight of the performance of their
contracts – including OIG and GAO audits – at no increase in the contract price.

   Management’s Response. The Assistant Administrator for Procurement partially
   concurred, stating that contracting officers “should, and do receive training on a
   regular basis on the contractual process” and that this training includes interpretation
   of contract clauses.
                                                                                          7



   Evaluation of Management’s Response. The Assistant Administrator’s comments
   are responsive to the intent of the recommendation. However, we would expect that
   the provided training contain an appropriate presentation of the oversight functions
   carried out by the OIG, GAO, and other Government agencies. NASA contracting
   officials need to be aware of the statutory and oversight environments in which
   contractors operate. NASA needs to be vigilant in ensuring that costs incurred for
   compliance with regulatory and other oversight regimes are properly accounted for in
   accordance with the FAR and the Cost Accounting Standards so that NASA is not
   improperly billed for a contractor’s routine compliance efforts. We will close the
   recommendation following verification that contracting officers are receiving applicable
   training.

We appreciate the courtesies extended during our review. If you have any questions or
need additional information, please contact Raymond Tolomeo, Acting Space Operations
Director, Office of Audits, at 202-358-7227, or G. Paul Johnson, Project Manager, Space
Operations Directorate, Office of Audits, at 321-867-7552.


Enclosures
                              Scope and Methodology
We performed this review from September 2009 through February 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the review to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on the objectives. We believe
that the evidence obtained during this review provides a reasonable basis for our findings
and conclusions based on our objectives.

We performed this review at Kennedy Space Center. We reviewed the procedures,
clauses, and task orders for Contract No. NAS10-00-001. In performing this review, we
identified and reviewed the following applicable documentation:

   •   Contract Authorization Document dated August 12, 2009,

   •   Non-Launch Services Task Order 389, signed and dated by ULA representative on
       August 11, 2009 and the NASA contracting officer on August 12, 2009,

   •   Non-Launch Services Task Order 389 Statement of Work,

   •   NASA Expendable Launch Services Support Contract No. NAS10-00-001,

   •   Federal Acquisition Clauses included in Contract No. NAS10-00-001, and

   •   ULA’s Cost Accounting Standard Disclosure Statement issued November 3, 2008
       with an effective date of January 1, 2009.

We also interviewed the lead contracting officer, the contracting officer, responsible
contracting officer technical representatives, and representatives from the KSC Office of
Chief Counsel.

Computer-Processed Data. We did not use computer-processed data to perform this
review.

Review of Internal Controls. We reviewed and evaluated internal controls associated
with the payment of the task order and found deficiencies as described in the report.
Implementation of the recommendations should improve the internal controls and prevent
future recurrence.

Prior Coverage. During the last 5 years, there has been no coverage of this particular
issue.




                                                                               Enclosure 1
                                                                               Page 1 of 1
Management’s Comments




                        Enclosure 2
                        Page 1 of 2
Enclosure 2
Page 2 of 2
Task Order 389




                 Enclosure 3
                 Page 1 of 3
Enclosure 3
Page 2 of 3
Enclosure 3
Page 3 of 3
